No. _________

In The
Supreme Court of the United States
JOE D. BRYAN,
V.

TEXAS,

Petitioner,

Respondent.

On Petition for Writ of Certiorari to the
Court of Criminal Appeals
of Texas

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
COMES NOW, Counsel for Petitioner Joe D. Bryan and files this Motion for
Leave to Proceed In Forma Pauperis. See Sup. Ct. R. 39. In support of this motion,
Petitioner would show the following:
Petitioner was sent to prison in 1989. He remained in prison continuously from
1989 until his release to parole on March 31, 2020. He is now eighty years old and
living with family. He has minimal fixed monthly income and no significant property
or other assets. Both counsel in the proceedings before this court and counsel in the
proceedings in the court below represent Mr. Bryan pro bono.

As indicated in the Declaration in Support of Motion for Leave to Proceed In
Forma Pauperis, attached to this motion as Exhibit 1, Mr. Bryan remains indigent.
Accordingly, counsel asks Mr. Bryan be allowed to continue under in forma pauperis
status for all proceedings before this Court.
Prayer
Petitioner prays the Court grant this Motion and allow him to continue under
in forma pauperis status for the proceedings before this Court.
Respectfully submitted,

Allison Clayton
Counsel of Record
The Law Office of Allison Clayton
on behalf of The Innocence Project of Texas
P.O. Box 64752
Lubbock, Texas 79464
P: (806) 773–6889
F: (888) 688–4515
Allison@AllisonClaytonLaw.com

Exhibit 1
Declaration of Petitioner
In Support of Motion for Leave to Proceed In Forma Pauperis

